UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-3153
WILLIAM SEVERS,
Appellant
v.
THE ATTORNEY GENERAL OF THE STATE OF NEW JERSEY;
ADMINISTRATOR NEW JERSEY STATE PRISON
On Appeal from the United States District Court
for the District of New Jersey
(D.C.No. l-03-cr-00060-001)
District Judge: Honorable Noel L. Hillman

SUR PETITION FOR REHEARING

Present: SMITH, ChiefJudge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHTPPS, Circuit Judges
The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the

k

k-\

circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
BY THE COURT,
s/ Cheryl Ann Krause
Circuit Judge
Date: April 30, 2021
Tmm/cc: William Severs
Stephen C. Sayer, I, Esq.

A’ ^

March 4, 2021
DLD-111
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-3153
WILLIAM SEVERS, Appellant
v.
THE ATTORNEY GENERAL OF THE STATE OF NEW JERSEY, ET AL.
(D.N.J. Civ. No. l-15-cv-06421)
Present:

JORDAN, KRAUSE and PHIPPS, Circuit Judges
Submitted is appellant's notice of appeal, which may be construed as a
request for a certificate of appealability under 28 U.S.C. § 2253(c)(1)
in the above-captioned case.
Respectfully,
Clerk

______________________________ ORDER_______________ ________________
Appellant’s request for a certificate of appealability is denied. In order to obtain a
certificate of appealability, Severs must show that “jurists of reason would find it
debatable whether the District Court was correct in its procedural ruling” by making a
“credible showing that the District Court’s denial of his Rule 60(b) motion was
erroneous.” Bracev v. Superintendent Rockview SCI, 986 F.3d 274, 283 (3d Cir. 2021)
(citations omitted). Reasonable jurists would not debate that the District Court properly
dismissed his motion as untimely. See Moolenaar v. Gov’t of the Virgin Islands, 822 F.2d
1342, 1348 (3d Cir. 1987) (holding that a Rule 60(b)(6) motion filed two years after the
cO^.L0.'/
judgment was not filed within a reasonable time).
By the Court,
s/ Cheryl Ann Krause
Circuit Judge
Dated: March 9, 2021

A True Copy^0

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY

WILLIAM SEVERS,
Petitioner,

Civ. No. 15-6421 (NLH)

v.

OPINION

THE ATTORNEY GENERAL OF THE
STATE OF NEW JERSEY, et al.,
Respondents.

APPEARANCES:
William Severs
539137 188285B
New Jersey State Prison
-P . O . Box 8 61
Trenton, NJ 08625
Petitioner Pro se
Jennifer Webb-McRae, Cumberland County Prosecutor.
Stephen C. Sayer, Assistant Prosecutor
Cumberland County Prosecutor's Office
115 Vine Street
Bridgeton, .NJ 0 83 02
Counsel for Respondents
HILLMAN, District Judge
Petitioner William Severs has filed a motion for relief
from this Court's dismissal of his habeas corpus petition-as
untimely.

ECF No. 23.

For the reasons that follow, the Court

denies the motion.

0+

I.

BACKGROUND
In 2005, Petitioner.was convicted in New Jersey state court

of the offenses of murder, unlawful possession of a firearm,
unlawful possession of a weapon requiring an ID, and obstructing
the administration of the law.
filed a timely direct appeal

See ECF No. 1 at 2.

Petitioner

which became final on December 10,

2009, ninety (90) days after the New Jersey Supreme Court denied
his Petition for Certification on September 11, 2009.

Id. at 3-

8.
Petitioner filed a state court post-conviction relief
("PCR") petition on November 5, 2009.

Id. at 8.

The PCR court

conducted a hearing on September 22, 2011 and issued an order
denying the petition on October 4, 2011.

Id.

Petitioner

indicated he wanted to appeal at the September 22 hearing and
several other times.

He wrote to the Office of the Public

Defender twice telling them he wished to appeal.
6.

ECF No. 11 at

"And on October 20, 2011, Severs again informed his counsel

that he wished to appeal

and complained that as of that date,

counsel had communicated nothing further to him about filing it.
Severs did not file his post-conviction appeal until October 15,
2012 . "
74

Severs v. Attorney Gen, of New Jersey,

793 F. App'x 72

(3d Cir. 2019), cert, denied sub nom. Severs v. Grewal

S. Ct. 829 (2020) .

2

140

Petitioner filed his habeas corpus petition under 28 U.S.C.
§ 2254 on August 21, 2015.

ECF No. 1.

Respondents filed a

motion to dismiss on the grounds that the petition was untimely
under the Antiterrorism and Effective Death Penalty Act of 1996
("AEDPA").

ECF No. 10.

Petitioner argued he should be granted

equitable tolling because his PCR attorney was involved in a
serious car accident and was unable to timely perfect
Petitioner's “appeal.

ECF No. 11 at 4.

The Court concluded the petition was untimely under 28
U.S.C. § 2244.

ECF No. 12 at 7.

It further held that

Petitioner was not entitled to equitable tolling because he had
not shown reasonable diligence inr pursing his PCR appeal.
at 10.
2 0T8 .

Id.

The Court granted the motion to dismiss on March 19,
ECF No. 13.

Petitioner appealed to- the United States Court of Appeals
for the Third Circuit.

ECF No. 14.

The Third Circuit affirmed

this Court's decision on November 5, 2019.

Severs v’. Attorney

Gen, of New Jersey, 793 F. App'x 72, 74 (3d Cir. 2019) .

The

United States Supreme Court denied a writ of certiorari on
January 13, 2020.

Severs v. Grewal, 14 0 S. Ct. -829 (2 020) .

On February 27, 2020, Petitioner filed the instant motion
for relief from judgment under Federal Rule of Civil Procedure
. 60(b)(6).

ECF No. 23.

in Garza v. Idaho,

He argues the Supreme Court's decision

139 S. Ct. 738

(2019), warrants reopening of

3

V C-3

his habeas case.

ECF No. 24.

Respondents did not file

opposition to the motion.
II.

DISCUSSION
A.

Legal Standard

A Rule 60(b) motion is "addressed to the sound discretion
of the trial court guided by accepted legal principles applied
in light of all the relevant circumstances."

Ross v. Meagan,

638 F.2d 646, 648 (3d Cir. 1981) .

"does not confer

Rule 60(b)

upon the district courts a 'standardless residual of
discretionary power to set aside judgments.

f u

Moolenaar v. Gov.

of the Virgin Islands, 822 F.2d 1342, 1346 (3d Cir. 1987).
Rule 60(b) (6) permits a court to relieve a party from a
final judgment for any reason that justifies relief.

"The

-standard for granting a Rule 6~0 (b) (6) motion is a high- one. The
movant must show 'extraordinary circumstances' to justify
reopening a .final judgment."
176

180 (3d Cir. 2014)

524, 536 (2005)).

Michael v. Wetzel, 57 0 F. App"x

(quoting Gonzalez v. Crosby, 545 U.S.

" [E]xtraordinary circumstances involves a

showing that without relief from the judgment,
"unexpected" hardship will result.
White

t n

Budget Blinds, Inc, v.

536 F.3d .244, 255 (3d. Cir. 2008)

Maroney, 558 F.2d 1159

1163

'an "extreme" and

(quoiing Mayberry v.

(3d Cir. 1977)).

4

> t-V

B.

Analysis
The Court must first consider whether this motion 'is

properly brought under Rule 60(b) or whether it is a second or
successive § 2254 petition.

"AEDPA's restrictions on the filing

of second or successive habeas petitions make it implausible to
believe that Congress wanted Rule 60(b) to operate under full
throttle in the habeas context."

Rodwell v. Pepe, 324 F.3d 66,

67 (1st Cir. 2003); accord Pridgen v. Shannon, 380 F.3d 721, 727
(3d Cir. 2004). "[I]n those instances in which the factual
predicate of a petitioner's Rule 60(b) motion attacks the manner
in which the- earlier habeas judgment was procured and not the
underlying conviction, the Rule 6 0 (b) motion may be adjudicated
on the merits."

Pridgen, 380 F.3d at 727.

"However, when the

Rule 60(b) motion seeks to collaterally attack the petitioner's
underlying conviction, the motion should be treated as a
successive habeas petition."

Id.

Petitioner argues the Supreme Court's decision in Garza,
holding that prejudice is presumed "when counsel's
constitutionally deficient performance deprives a defendant of
an appeal that he otherwise would have taken" even if the
defendant signed an appellate waiver, 139 -S. Ct. at 744,
warrants reopening his case.

He argues that the petition should

not have been dismissed as untimely because of the ineffective
assistance of PCR counsel in delaying the filing of his appeal.
5

* c^s

The Court concludes that this argument is not a second or
successive § 2254 petition.
Motions under Rule 60(b)(6) must be filed "within a
reasonable time" after the entry of judgment.
60(c) (1) .

Fed. R. Civ. P.

The current motion was filed almost two years after

the judgment entered on March 19, 2018 and a year after the
Garza decision on February 27, 2019.

The Court concludes this

was not a reasonable amount of time for Petitioner to wait to
file his motion.
At the time the Garza decision was issued, Petitioner's
appeal was pending in the Third Circuit.

The court of appeals

granted a certificate of appealability on the-timeliness
question and appointed counsel to represent Petitioner on April
4, 2019.

Severs v. Attorney Gen, of New Jersey, No. 18--1822

Cir. Apr. 4, 2019).

(3d

The Third Circuit issued its decision on

November 5, 2019, well after Garza was decided.

Petitioner

.could have presented his Garza argument to. the Third Circuit or
to the Supreme Court.

Instead, it appears he waited until the

Third Circuit and Supreme Court denied his appeals before filing
asserting a right to relief based on Garza.
Alternatively, Petitioner has not shown the extraordinary
circumstances necessary for relief under Rule 60(b)(6).

The

Supreme Court has noted that "our cases have required a movant
seeking relief under Rule 60(b)(6) to show 'extraordinary
6

t-

circumstances' justifying the reopening of a final judgment.
Such circumstances will rarely occur in the habeas context."
Gonzalez v. Crosby, 545 U.S. 524, 535 (2005).
Garza has little application to Petitioner's case.

In

Garza, the Supreme Court concluded that the prejudice prong of
an ineffective assistance of counsel claim is presumed to have
been met when an attorney failed to file a notice of appeal at
the defendant's request even if the defendant signed an
appellate waiver in a plea agreement.
749-50.

See Garza, 139 S. Ct. at

Petitioner went to trial; he did not sign a plea

agreement.

ECF No. 24-1 at 2.

Garza was merely the extension

of a rule that- already existed at the time of Petitioner's PCR
petition and initial habeas filing.
"The Supreme Court in Garza did not recognize a new right
the Court by its own logic was merely applying the rule<
announced in Roe v. Flores-Ortega

528 U.S. 470 (2000), to those

circumstances where there was an applicable appellate waiver."
Thieme v. United States, No. 19-15507, 2020 WL 1441654, at *3
(D.N.J. Mar. 24, 2020)

(citing Garza, 13-9 S. Ct. at 745-48) .

There is nothing about. Garza that presents 'the extraordinary
circumstances necessary to warrant relief from this Court's order dismissing the petition as untimely.
U.S. at 537

See Gonzalez,

545

("The. change in the law ... is all the less

extraordinary in petitioner's case, because of his lack of
7

* t'~)

diligence in pursuing review" on the issue raised in the Rule
60(b)(6) motion).
As Petitioner has not shown the extraordinary circumstances
necessary to justify relief under Rule 60(b) (6)

the Court will

deny the motion.
III. Conclusion
The Court will deny the motion for relief from judgment.
An appropriate Order will be entered.

s/ Noel L. Hillman
NOEL L. HILLMAN U.S..D. J.

Dated: September 30, 2020
At Camden, New Jersey

8

>

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY

WILLIAM SEVERS
Petitioner,

Civ. NO. 15-6421 (NLH)

v.

ORDER

THE ATTORNEY GENERAL OF THE
STATE OF NEW JERSEY, et al.
Respondents.

For the reasons expressed in the Opinion filed herewith,
IT IS on this

30th

day of September, 2020,

ORDERED that the motion for relief from, judgment, ECF No.
23, be, and the same hereby is, denied; and it is finally
ORDERED that the Clerk shall serve this Order and the
accompanying Opinion on .Petitioner by regular U.S. mail.

At Camden, New Jersey

s/ Noel L. Hillman
NOEL L. HILLMAN, U.S.D.J.

% C'*)

Case: 18-1822

Document: 003113396664

Page: 1

Date Filed: 11/05/2019

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 18-1822

WILLIAM SEVERS,
Appellant
Y.

THE ATTORNEY GENERAL OF THE STATE OF NEW JERSEY;
ADMINISTRATOR NEW JERSEY STATE PRISON

On Appeal from the United States District Court
for the District of New Jersey
(D.C.No. l-15-cv-06421)
District Judge: Honorable Noel L. Hillman

Submitted October 29, 2019
Before: SMITH, ChiefJudge, HARDEMAN, and PHIPPS, Circuit Judges.

JUDGMENT

This cause came on to be considered on the record from the United States District
Court for the District of New Jersey and was submitted pursuant to Third Circuit L.A.R.
34.1(a) on October 29, 2019. On consideration whereof, it is now hereby
ORDERED and ADJUDGED by this Court that the judgment of the United States
District Court for the District of New Jersey entered March 19,2018, be and the same is
hereby AFFIRMED. All of the above in accordance with the Opinion of this Court.

I
lot 4

Case: 18-1822

Document: 003113396664

Page: 2

Date Filed: 11/05/2019

No costs shall be taxed.
ATTEST:

s/Patricia S. Dodszuweit
Clerk
Dated: November 5, 2019

2

2 of 4

Case: 18-1822

Document: 003113396659

Page: 1

Date Filed: 11/05/2019

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 18-1822

WILLIAM SEVERS,
Appellant
v.
THE ATTORNEY GENERAL OF THE STATE OF NEW JERSEY;
ADMINISTRATOR NEW JERSEY STATE PRISON

On Appeal from the United States District Court
for the District of New Jersey
(D.C. No. l-15-cv-06421)
District Judge: Honorable Noel L. Hillman

Submitted under Third Circuit LAR 34.1 (a)
October 29, 2019
Before: SMITH, Chief Judge, HARDIMAN, and PHIPPS, Circuit Judges
(Filed: November 5, 2019)

OPINION*

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7
does not constitute binding precedent.

3

Case: 18-1822

Document: 003113396659

Page: 2

Date Filed: 11/05/2019

HARDIMAN, Circuit Judge.
William Severs appeals an order of the District Court dismissing his untimely
petition for writ of habeas corpus under 28 U.S.C. § 2254. We agree with the District
Court that Severs had no right to equitable, tolling, so we will affirm.
I1
On September 2, 2005, a New Jersey state court jury convicted Severs of murder
and other serious crimes and he was sentenced to 60 years in state prison. After
exhausting his direct appeal rights, Severs petitioned for post-conviction relief. The court
denied his petition at a post-conviction hearing on September 22, 2011. About two weeks
. later, on October 4, 2011, the court filed a written opinion explaining the reasons for the
denial.
Severs stated his desire to appeal at the September 22 hearing and several other
times. He informed the Office of the Public Defender of his desire to appeal by letters
dated September 26 and October 3,2011. And on October 20, 2011, Severs again
informed his counsel that he wished to appeal, and complained that as of that date,
counsel had communicated nothing further to him about filing it. Severs did not file his
post-conviction appeal until October 15, 2012.

1 The District Court had jurisdiction under 18 U.S.C. § 3231. We have jurisdiction
under 28 U.S.C. § 1291 and we review de novo the District Court’s determination that
equitable tolling did not apply. See Munchinski v. Wilson, 694 F.3d 308, 329 (3d Cir.
2012).

Case: 18-1822

Document: 003113396659

Page: 3

Date Filed: 11/05/2019

Severs blames his former counsel and the Office of Public Defender for the oneyear delay in filing the appeal from the denial of his petition for post-conviction relief. In
support, Severs filed a document entitled “Certification,” a letter by his post-conviction
counsel stating that Severs asked counsel to appeal the denial of his petition. The letter
states that because counsel was in a severe car accident, he could not timely file Severs’s
post-conviction appeal. Yet the letter provides no specific facts about counsel’s inability
to file an appeal. Nor is there evidence in the record to show that Severs followed up with
his counsel after his October 20,2011 letter complaining about the lack of information
regarding the filing of his post-conviction appeal. Although the “Certification” letter
states that counsel returned his client’s files in February 2012, the record does not
demonstrate that Severs contacted the Office of the Public Defender anytime afterwards
before that office finally filed a notice of appeal in October 2012. And following the New
Jersey Supreme Court’s denial of review of his appeal, Severs again waited nearly one
year before seeking federal habeas relief, and fails to explain this second delay.
The Antiterrorism and Effective Death Penalty Act (AEDPA) provides a one-year
limitations period for § 2254 claims. There is no dispute that Severs’s petition was
untimely as he concedes he had until October 27,2014 to file his petition but failed to do
so until August 21, 2015. The District Court accordingly dismissed Severs’s § 2254
petition, finding that Severs had not shown sufficient evidence to justify equitable tolling.
We agree.

o-s

Case: 18-1822

Document: 003113396659

Page: 4

Date Filed: 11/05/2019

n
AEDPA’s one-year limitations period may be equitably tolled only in
extraordinary cases. Holland v. Florida, 560 U.S. 631, 649-50 (2010). Here, Severs had
to establish: (1) he pursued his rights diligently, and (2) extraordinary circumstances
prevented a timely petition. Id. at 649.
First, Severs failed to show he pursued his rights with reasonable diligence. See id.
at 653; LaCava v. Kyler, 398 F.3d 271, 277 (3d Cir. 2005) (diligence requirement extends
to the federal habeas petition and all state court remedies). For some time, Severs acted
with reasonable diligence. The District Court observed that Severs appealed his
conviction, pursued post-conviction relief, and informed both his attorney and the Office
of the Public Defender of his intent to appeal the denial of his petition for post-conviction
relief. But he provided no evidence of any further attempt to file his appeal within the
limitations period or for a substantial period thereafter even though he expressed concern
that his appeal had not been filed as of October 20, 2011. When the New Jersey Appellate
Division affirmed the denial of his petition for post-conviction relief, Severs still had 35
days to file a timely federal habeas petition. Yet he waited 298 days beyond the
limitations period to do so. Thus, the District Court did not err when it held that Severs
did not show he pursued his rights with reasonable diligence.
Second, Severs failed to establish that extraordinary circumstances prevented him
from timely appealing the denial of his petition for post-conviction relief. Jenkins v.
Superintendent of Laurel Highlands, 705 F.3d 80, 89 (3d Cir. 2013). Equitable tolling

ip

^ J0h(s?

Case: 18-1822

Document: 003113396659

Page: 5

Date Filed: 11/05/2019

typically applies when the petitioner has in some extraordinary way... been prevented
from asserting his or her rights.” Jones v. Morton, 195 F.3d 153, 159 (3d Cir. 1999)
(emphasis added) (citation and internal quotation marks omitted). Although Severs
provided the letter from his counsel about a car accident, the letter says nothing about
when the car accident occurred or to what extent or for how long the accident
incapacitated counsel. To the extent that the Office of the Public Defender eventually
acquired responsibility for Severs’ post-conviction appeal, its contribution to the filing
delay was evidently due to a backlog in its case management. App. 87. Assuming that is
true, this garden variety” delay was nothing more than “excusable neglect,” which is
hardly extraordinary. Holland, 560 U.S. at 651-52 (citation and internal quotation marks
omitted). So the District Court did not err in determining Severs failed to show he was
prevented in an extraordinary way from asserting his rights.
In sum, because Severs has established neither reasonable diligence nor
extraordinary circumstances sufficient to justify equitable tolling, we will affirm the
District Court’s order holding his habeas petition untimely.

» 7

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY

WILLIAM SEVERS,
Civ. No. 15-6421 (NLH)

Petitioner,

ORDER

v.
THE ATTORNEY GENERAL OF THE STATE
OF NEW JERSEY, et al.,
Respondents.

For the reasons expressed in the Opinion filed herewith,
IT IS on this

19th

day of March, 2018,

ORDERED that the Motion to Dismiss, ECF- No. 10, is GRANTED;
and it is further
ORDERED that the Petition for Writ of Habeas Corpus, ECF
No. 1, is DISMISSED as untimely; and it is further
ORDERED that a certificate of appealability shall not
.

issue; and it is further
ORDERED that the Clerk shall serve this Order and the
accompanying Opinion on Petitioner by regular U.S. mail; and it
is further
ORDERED that the Clerk shall mark this case CLOSED.

At Camden, New Jersey

s/ Noel L. Hillman
NOEL L. HILLMAN, U.S.D.J.

*£ 1

•20vs Us-CWv Le*is

COc^ pW /<-/ z&ni
J

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY

WILLIAM SEVERS,
Petitioner,
v.

Civ. No. 15-6421 (NLH)
OPINION

THE ATTORNEY GENERAL OF THE STATE
OF NEW JERSEY, et al.,
Respondents.

APPEARANCES:
William Severs, No. 188285-B
New Jersey State Prison
P.O. Box 861
Trenton, NJ 08625
Petitioner Pro Se
Jennifer Webb-McRae
Cumberland County Prosecutor
115 Vine Street
Bridgeton, NJ 08302
Counsel for Respondent
HILLMAN, District Judge
Petitioner William Severs, a prisoner confined at New
Jersey State Prison in Trenton, New Jersey, filed a Petition for
a Writ of Habeas Corpus under 28 U.S.C. § 2254, challenging his
2005 New Jersey state court conviction.

ECF No. 1.

For the

reasons discussed below, Respondents' Motion to Dismiss the
Petition as time-barred under 28 U.S.C. § 2244(d), ECF No. 10,
will be granted and the Petition dismissed.

I.

BACKGROUND
In 2005, Petitioner was convicted in New Jersey state court

of the offenses of murder, unlawful possession of a firearm,
unlawful possession of a weapon requiring an ID, and obstructing
the administration of the law.

See ECF No. 1, Pet. at 2.

Petitioner filed a timely direct appeal, which became final on
December 10, 2009, ninety (90) days after the New Jersey Supreme
Court denied his Petition for Certification on September 11,
2009.

See id. at 3-8.
On November 5, 2009, Petitioner filed a state court PCR

petition.
2011.

Id.

Id. at 8.

The PCR petition was denied on October 4,

Petitioner notified the Office of the Public

Defender by letter dated October 3, 2011 of his intent to appeal
.

his PCR petition denial and requested the copies of the briefing
from his direct appeal process so that he might use them in his
PCR petition appeal.

ECF No. 11, at 6.

Petitioner wrote to his

PCR attorney by letter dated October 20, 2011, stating as
fellows:
As you well know, we were denied an evidentiary
hearing, on the date, September 22, 2011, and prior to
leaving the courtroom, you made Judge Fineman aware of
the fact, that your client, William Severs would need
a copy of the Judge's decision, also you informed the
Judge that we would be appealing the decision of the
court. Mr. Paul, you explained to me that you were
going to handle the filing of the appeal, As of this
date (10-20-11), I have not heard anything from you.
In the meantime, I have written to Ms. Jodi Ferguson
(on 9-26-11), and to Mr. Raymond Black, (on 10-03-11);
?

V

C-3

I made them aware that I am filing for an appeal, on
my Post Conviction Relief petition, in which I was
denied the right to an evidentiary hearing.
ECF No. 11, at 8.

Petitioner's time for filing a timely appeal

to the Appellate Division of the New Jersey Superior Court
expired on November 18, 2011, forty-five days after the entry of
the order denying the PRC Petition on October 4, 2011.1

Over a

year later, Petitioner filed the appeal of his PCR denial on
October 15, 2012.

ECF No. 1, at 12.

The Appellate Division

affirmed the denial of the PCR petition on March 14, 2014.
Petitioner next filed a petition for certification with the
Supreme Court of New Jersey on March 19, 2014, which was denied
on September 22, 2014.

Id., at 15.

Petitioner effectively filed this Petition on August 21,
2015, the date on which he placed the Petition into the prison's
mailing system, although it was not docketed by the clerk until
August 26, 2015.

See id. at 28.

Respondents filed a Motion to

Dismiss on August 10, 201-7, in which they assert the Petition
should be dismissed as untimely under § 2244(d).
1.

ECF No. 10, at

Petitioner filed a response on the issue of timeliness
ECF No. 11.

raised in the motion to dismiss.

Relevant to the

instant Motion, Petitioner includes a "certification" from his
PCR attorney, in which the attorney states that he was involved

1 N.J. Ct. R. 2:4(a) (providing forty-five days in which to file
a notice of appeal to the Appellate Division).
3

"k

in a serious car accident and was unable to timely perfect
Petitioner's appeal.

See id. at 4.

This certification appears

to have been executed for the purposes of Petitioner's untimely
PCR appeal to the Appellate Division.

See id.

(dated February

29, 2012) .
II.

DISCUSSION
The governing statute of limitations under the

Antiterrorism and Effective Death Penalty Act ("AEDPA") is found
at 28 U.S.C. § 2244(d), which states in relevant part:
(1) A 1-year period of limitation shall
apply to an application for a writ of
habeas corpus by a person in custody
pursuant to a judgment of a State court.
The limitation period shall run from the
latest of(A) the date on which the judgment became
final by the conclusion of direct review
or the expiration of the time for seeking
such review;

(2) The time during which a properly
filed
application
for
State
post­
conviction or other collateral review
with respect to the pertinent judgment or
claim is pending shall not be counted
toward any period of limitation under
this subsection.
28 U.S.C. § 2244 (d) .
'

157

See also, Jones v. Morton, 195 F.3d 153,

(3d Cir. 1999).
Pursuant to § 2244(d), evaluation of the timeliness of a §

2254 petition reguires a determination of, first, when the

4

-v- i-3

c~

pertinent judgment became "final," and, second, the period of
time during which an application for state post-conviction
relief was "properly filed" and "pending."

The judgment is

determined to be final by the conclusion- of direct review, or
the expiration of time for seeking such review, including the
ninety-day period for filing a petition for writ of certiorari
in the United States Supreme Court.
S. Ct.

641,

See Gonzalez v. Thaler, 132

653-54 (2012) .

Here, the New Jersey Supreme Court denied Petitioner's
petition for certification on direct appeal on September 11,
2009.

He did not file a petition for writ of certiorari in the

Supreme Court of the United States, so his conviction became
final ninety days later, i. e. on December 10, 2009.

Petitioner,

however, filed his PCR petition on November 5, 2009, prior to
his conviction becoming final, so federal habeas statute of
limitations did not begin to run on December 10, 2009.
U.S.C. § 2244 (d) (2) .

See 28

Instead, the limitations period initially

-—began’ to run November 19, 2011, which is the day after his time
for filing an appeal of his denied PCR petition expired.
Ct. R. 2:4-l(a)

(providing for 45 days for appeal).

v. Horn, 359 F.3d 257, 263 (3d Cir. 2004)

N. J.

.

See Douglas

(rejecting notion that

by "filing a nunc pro tunc petition for leave to appeal a
petitioner could obtain further tolling after the time for even
discretionary review of a judgment has expired"); Swartz v.
5

*

e-L,

Meyers, 204 F.3d 417, 424, n.6 (3d Cir. 2000)

("We .

.

. agree

that the time during which Swartz's nunc pro tunc request for
allowance of appeal was pending does not toll the statute of
limitation.") ; see also Alvarenga v. Lagana, No. 13-4604, 2016
WL 3610156, at *1 (D.N.J. July 1, 2016)

("When an out-of-time

appeal is filed, even if the appeal is accepted as properly
filed by the state appeals court, statutory tolling does not
include the period between the expiration of time to appeal and
when the appeal was actually .filed."), aff1d sub nom Alvarenga
v. Admin N. State Prison, No. 16-3538 (3d Cir. Dec. 14,
2016) (denying certificate of appealability); Smith v. Holmes,
No. 13-1876, 2016 WL 1464649, at *1 (D.N.J. Apr. 14, 2016)
("when an untimely appeal is filed—even if the appeal is
accepted as properly filed by the state appeals court—statutory
tolling does not include the period between expiration of the
time to appeal and when the appeal was actually filed"); Martin
v. D'Ilio, No. 15-7158, 2017 WL 1003246, at *2 (D.N.J. Mar. 15,
2 017)

(s ame) .
Here, Petitioner's federal habeas statute of limitations

began to run on November 19, 2011, and continued to run until he
filed his appeal of the denied PCR petition on October 15-, 2012—
for a total of 330 days.

Then, the statute of limitations was

tolled during the pendency of the PCR appeal and the timely
filed petition for certification to the New Jersey Supreme
6

*

£-~»

Court, but started to run again once the New Jersey Supreme
Court denied review on September 22, 2014.

At this point, 35

days remained on the federal habeas statute of limitations,
which expired on October 27, 2014.

Thus, Petitioner had until

October 27, 2014 to file the instant petition but did not do. so
until August of 2015.

Accordingly, the Petition is time-barred

unless Petitioner can demonstrate extraordinary circumstances to
justify equitable tolling of the limitations period.
In Holland v. Florida, the Supreme Court held that AEDPA's
■

one-year limitations period is subject to equitable tolling in .
appropriate cases, on a case-by-case basis.
50 (2010).
2013) .

560 U.S. 631, 649-

See Ross v. Varano, 712 F.3d 784, 798

(3d Cir.

A litigant seeking equitable tolling bears the burden of

establishing two elements: "(1) that he has been pursuing his
rights diligently, and (2) that some extraordinary circumstance
stood in his way."

Holland, 560 U.S. at 649 (quoting Pace v.

DiGuqlielmo, 544 U.S. 408, 418 (2005)).

See also Jenkins v.

Superintendent of Laurel Highlands, '705 F.3d 80, 89 (3d Cir.
2013) .
The diligence required for equitable tolling is reasonable

7
/ .
t

diligence,, not maximum, extreme, or exceptional diligence.
Holland, 560 U.S. at 653.

"This obligation does not pertain

solely to the filing of the federal habeas petition, rather it
is an obligation that exists during the period appellant is
7

h

exhausting state court remedies as well." LaCava v. Kyler, 398
F.3d 271, 277 (3d Cir. 2005)

(citation omitted).

Alicia v. Karestes, 389 F. App'x 118, 122

See also

(3d Cir. 2010)

(holding that the "obligation to act diligently pertains to both
the federal habeas claim and the period in which the' petitioner
exhausts state court remedies").

Reasonable diligence is

examined under a subjective test, and it must be considered in
light of the particular circumstances of the case.

See Ross

712 F.3d at 799; Schlueter v. Varner, 384 F.3d 69, 74
2004)

(3d Cir.

("Due diligence does not require the maximum feasible

diligence, but it does require diligence in the
circumstances.").
The court also must determine whether extraordinary
circumstances exist to warrant equitable tolling,

" [G]arden

variety claim[s] of excusable neglect"'by a petitioner's
attorney do not generally present an extraordinary circumstance
meriting equitable tolling.
omitted).
Cir. 2003).

Holland, 560 U.S. at 651 (citations

See also Merritt v. Blaine-, 326 F.3d 157, 168 (3d
Rather, equitable tolling can be triggered only

when "the principles of equity would make the rigid application
of a limitation period unfair, such as when a state prisoner
faces extraordinary circumstances that prevent him from filing a
timely habeas petition and the prisoner has exercised reasonable
diligence in attempting to investigate and bring his claims."
8

t l-°\

>

LaCava, 398 F.3d at 275-276.

See also Holland, 560 U.S. at 648-

49 (relying on Pace, 544 U.S. at 418); Jenkins, 705 F.3d at 89
(holding that equitable tolling should be applied sparingly, and
only when the "principles of equity would make the rigid
application of a limitation period unfair").
Indeed, extraordinary circumstances have been found only
where (a) the respondent has actively misled the plaintiff,

(b)

the petitioner has in some extraordinary way been prevented from
asserting his rights,

(c) the petitioner has timely asserted his

rights mistakenly in the wrong forum, or (d) the court itself
has misled a party regarding the steps that the party needs to
take to preserve a claim.
230 (3d Cir. 2005) .

See Brinson v, Vaughn,

398 F.3d 225,

Nevertheless, it must be restated that,

even where extraordinary circumstances do exist, "if the person
seeking equitable tolling has not exercised reasonable diligence
in attempting to file after the extraordinary circumstances
began, the link of causation between the extraordinary
circumstances and the failure to file is broken, and the
extraordinary circumstances therefore did not prevent timely
filing."

Brown v. Shannon, 322 F.3d 768, 773 (3d Cir. 2003)

(quoting Valverde v. Stinson, 224 F.3d 129, 134

(2d Cir. 2000)).

In his response to the Motion to Dismiss, Petitioner gives
little explanation for his delay filing an appeal of his PCR
petition.

He cites and includes as an exhibit the
9

K £')o

»

>

aforementioned attorney certification.

Although an attorney who

was prevented from filing an appeal on behalf of a petitioner
because he was involved in a serious car accident may, under
other circumstances, provide cause for equitable tolling, it
does not in this matter/
\"-V.

First, Petitioner fails to provide
/

specific facts regarding/when \his attorney was in a car
\

accident, foih-dgqwlong his attorney was incapacitated, and.when~)
his attorney's c'apacity was regained.) The Court is thus unable
to assess Petitioner' sidrtige'nce and whether the circumstances
were truly extraordinary.
Second, Petitioner fails to explain the nearly year-long
Once again, the Court is

delay for filing the PCR appeal.

unable to assess Petitioner's diligence after he discovered that
his appeal was not filed.

Finally, the letters submitted by

Petitioner demonstrate that (1) Petitioner intended to file the
appeal, and (2) Petitioner was aware that, as of October 20,
2011, no PCR appeal had been taken by his attorney and that his
attorney had not been in communication with him for almost a
month.

These/letters tend to undercut any argument in favor of

equitable tolling.

Petitioner has thus failed to meet his

burden to demonstrate the factors necessary to invoke equitable
tolling.

10

eil

t

Petitioner also cites 28 U.S.C. § 2244(d)(1)(B) in support
"* of the timeliness of his Petition.

That subsection provides, in

pertinent part:
A one-year period of limitation shall apply to an
application for a writ of habeas, corpus by a person in
custody pursuant to the judgment of a State court.
The limitation period shall run from the latest of—

(B) the date on which the impediment to file an
application created by the State action in
violation of the Constitution or laws of the
United States is removed, if the applicant was
prevented from filing such State action."
28 U.S.C. § 2244(d)(lj (B).

Here, however, Petitioner does not

allege or provide any facts that support that he was prevented
from filing any such State action.

Accordingly, the Petition

will be dismissed as untimely.
III. Certificate of Appealability
Pursuant to 28 U.S.C. § 2253(c), unless a circuit justice
or judge issues a certificate of appealability, an appeal may
not be taken from a final order in a proceeding under 28 U.S.C.
§ 2254.

A certificate of appealability ("COA") may issue "only

if the applicant has made a substantial showing of the denial of
a constitutional right."

28 U.S.C. § 2253 (c) (2) .

"A petitioner

satisfies this standard by demonstrating that jurists of reason
could disagree with the district court's resolution of his
constitutional claims or that jurists could conclude the issues
presented are adequate to deserve encouragement to proceed
11

K LAL

*♦>

*

w

further."

Miller-El v. Cockrell, 537 U.S. 322, 327

(2003)

(citation omitted), cited in United States v. Williams, 536 F.
App'x 169, 171 (3d Cir. 2013) .
"When the district court denies a habeas petition on
procedural grounds without reaching the prisoner's underlying'
constitutional claim, a COA should issue when the prisoner
shows,

at least, that jurists of reason would find it debatable

whether the petition states a valid claim of the denial of a
constitutional right and that jurists of reason would find it
debatable whether the district court was correct in its
procedural ruling."

Slack v. McDaniel, 529 U.S. 473, 484

(2000), cited in Kaplan v. United States, No. 13-2554, 2013 WL
3863923, *3 (D.N.J. July 24, 2013).
Here, jurists of reason would not find it debatable whether
this Court is correct in its procedural ruling.

No certificate

of appealability shall issue.
IV.

Conclusion
For the reasons set forth above, this Court finds that the

§ 2254 habeas petition should be dismissed as untimely filed
under 28 U.S.C. § 2244(d), and a certificate of appealability
will not issue accordingly.
An appropriate Order follows.
s/ Noel L. Hillman
NOEL L. HILLMAN
United States District Judge

Dated: March 19, 2018
At Camden, New Jersey
12

!

